HHS/OIG-Audit--"Review of the State of Tennessee Self-Insurance Funds, (A-04-91-00023)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Tennessee Self-Insurance Funds," (A-04-91-00023)
March 23, 1992
Complete
Text of Report is available in PDF format (1.12 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report, based upon certain agreed-upon procedures performed by a certified public accounting firm, disclosed
that the Claims Award Fund (one of Tennessee's self-insurance funds) had a $27.5 million adjusted fund balance at June
30, 1990 of which 20 percent, or $5.5 million represents the Federal share of the excess reserve balance. We recommended
that the State make a financial adjustment of $5.5 million. We also recommended that the ensure that charges to Federal
programs are in accordance with OMB Circular A-87 and the Statewide Cost Allocation Plan. Tennessee officials basically
concurred with our findings and recommendations.